                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

    Case Number: A07060033                                                    11          Page 1 of 1



        . A proactive review identified possible plagiarism in the subject's CAREER proposal.'
         However, in every instance, the duplicated sentence is short and common, paraphrased, or
         augmented by the subject's own words that describe a common accepted approach to teaching
         and education. These approaches and strategies are part of a commitment to education expected
         to be part of a CAREER proposal. The project description of three other recent proposals of the
         subject were examined, and there was no indication of duplicated text found. The issue of
         potential plagiarism is therefore without substance.

         Accordingly, this case is closed.




          ' Redacted.
           Redacted.


I
NSF OIG Form 2 (1 1/02)
